<html>
<title> - COUNTERING THE VIRTUAL CALIPHATE: THE STATE DEPARTMENT'S PERFORMANCE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                   COUNTERING THE VIRTUAL CALIPHATE: 
                   THE STATE DEPARTMENT'S PERFORMANCE

=======================================================================

                                 HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 13, 2016

                               __________

                           Serial No. 114-205

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]        


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 _________
                                 
                                 
                  U.S. GOVERNMENT PUBLISHING OFFICE
20-744PDF                  WASHINGTON : 2016                  
                                 
________________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="81e6f1eec1e2f4f2f5e9e4edf1afe2eeecaf">[email&#160;protected]</a>  
                                
                                 
                                 
                                 
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       BRIAN HIGGINS, New York
MATT SALMON, Arizona                 KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          ALAN GRAYSON, Florida
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                ALAN S. LOWENTHAL, California
RANDY K. WEBER SR., Texas            GRACE MENG, New York
SCOTT PERRY, Pennsylvania            LOIS FRANKEL, Florida
RON DeSANTIS, Florida                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida                 ROBIN L. KELLY, Illinois
CURT CLAWSON, Florida                BRENDAN F. BOYLE, Pennsylvania
SCOTT DesJARLAIS, Tennessee
REID J. RIBBLE, Wisconsin
DAVID A. TROTT, Michigan
LEE M. ZELDIN, New York
DANIEL DONOVAN, New York

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                                WITNESS

The Honorable Richard Stengel, Under Secretary for Public 
  Diplomacy and Public Affairs, U.S. Department of State.........     4

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Richard Stengel: Prepared statement................     6

                                APPENDIX

Hearing notice...................................................    40
Hearing minutes..................................................    41
The Honorable Lois Frankel, a Representative in Congress from the 
  State of Florida: Material submitted for the record............    43
  
  
  

 
                   COUNTERING THE VIRTUAL CALIPHATE: 
                   THE STATE DEPARTMENT'S PERFORMANCE

                              ----------                              


                        WEDNESDAY, JULY 13, 2016

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:01 a.m., in 
room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order. Today we 
continue our oversight of the administration's response to ISIS 
and to Islamist extremism. Specifically we will be looking at 
the State Department's effort to counter ISIS' message online.
    As the committee heard last month, the Internet is awash 
with terrorist propaganda and this includes horrific videos of 
beheadings, of firing squads, of torture of men, women, and 
children. ISIS operates a vast network of online recruiters; 
online propagandists. The mission of these individuals is to 
expand their ranks across multiple continents, including our 
continent, including right here at home.
    So this is on the Internet, what would be called their 
``virtual caliphate.'' They use popular media sites, and 
through that process ISIS can reach a global audience--it does 
this within seconds. Once lured in, they communicate privately 
on platforms with sophisticated encryption encouraging tens of 
thousands--including many from Western countries--to travel to 
Syria, to travel to Iraq, to travel to Libya and join the 
fight. But more and more the virtual caliphate is calling on 
its followers not to take that trek to Syria or Iraq or Libya 
or other camps, terrorist camps that they have set up, but 
instead to attack where they are--to take up arms at home. That 
is the new messaging. And Orlando is a grim example of that.
    As we will hear today, ISIS' online presence is just as 
critical to the organization as the large amounts of territory 
that it controls, whether that control be in Iraq or Syria or 
Libya. Defeating ISIS on both the physical and virtual 
battlefields requires very strong, very decisive action.
    Now in the past unfortunately the State Department effort 
to respond to extremist content online has struggled. Its 
Center for Strategic Counterterrorism Communications was 
designed to identify and to respond to extremist content 
online. Yet because its communications were ``branded'' with 
the official State Department seal, nobody listened.
    In March, the President issued an executive order to revamp 
this effort, renaming it the Global Engagement Center. And 
Richard Stengel, our new Under Secretary for Public Diplomacy 
and Public Affairs, is here with us to testify today. It was 
given the mission to lead the government-wide effort to 
``diminish the influence of international terrorist 
organizations.'' We look forward to hearing from the Department 
on how the Global Engagement Center is taking on this fight.
    At a basic level key questions remain, including the type 
of message that would be most effective in the face of this 
virulent ideology. Some suggest that the voices of disaffected 
former jihadists are particularly potent in deterring future 
jihadists. These are individuals who quickly discovered that 
life under ISIS was not as advertised, is not the utopia that 
they were promised, and they have the skill to communicate just 
how disillusioned they were.
    But if this is the message, how should it be delivered? 
Should the Federal Government produce and disseminate content? 
Is the Federal bureaucracy equipped for such a fast moving 
fight? I suspect not. Does any association with the State 
Department mean this message is dead on arrival? As one witness 
told the committee last month: ``Worst of all, Government is by 
definition risk averse which is the opposite of what you have 
to be online.''
    Previous witnesses suggested that a more effective approach 
could have the U.S. Government issuing grants to outside groups 
to carry out this mission. This would have the advantage of 
allowing the U.S. Government to set the policy, but put those 
with the technical expertise and credible voice in the driver's 
seat. After all, such separation and distance from the U.S. 
Government has helped our democracy promotion programs through 
the National Endowment for Democracy, for those of us that 
remember their method of operation over the years. They work in 
areas of the globe where official U.S. support just isn't 
feasible.
    And what role should technology companies play in all this? 
What about that sector? In recent weeks, some have announced 
promising new technologies that would automatically remove 
extremist content as soon as it goes online. We need everyone 
acting in sync, including the tech sector, including the 
entertainment industry, including the government.
    Time is of the essence. If we don't come to grips with the 
virtual caliphate now, this struggle against Islamist terrorism 
will become more challenging by the day.
    So I will now turn to the ranking member, Mr. Elliot Engel 
of New York, for any opening comments that he may have.
    Mr. Engel. Thank you, Mr. Chairman. Thank you for calling 
this hearing. Under Secretary Stengel, welcome to the 
committee. I used to be a big fan of Casey Stengel. I don't 
know if he is related. I know the director of the Global 
Engagement Center, Michael Lumpkin, has briefed us there a 
couple of times and it is great to have you with us today. 
Thank you.
    The development of information technology during our lives 
has dramatically changed the way people around the world 
communicate, share information, and conduct business. We are 
connected on a global scale like never before and so much good 
that can come of that. But we know it cuts both ways. This 
incredible tool can also be used for incredible harm and there 
is no better example of that than the way ISIS has harnessed 
technology to spread its hateful message and recruit more 
fighters into its ranks. With a click of a button ISIS can 
broadcast its shocking violence to virtually anyone with a 
laptop or a smart phone, and with social media ISIS works to 
radicalize people around the world urging so-called lone wolves 
to attack targets in their communities, urging terrorists to 
take full advantage of lax gun laws that make buying a weapon 
as easy as buying a secondhand baseball card.
    Though we cannot spot it on a map, our efforts to confront 
ISIS' virtual violence is another major front in our 
Counterterror Campaign. In fact, this online battlefield may be 
ISIS' last stand. It was reported today that even ISIS 
terrorists realize their days are numbered when it comes to 
controlling large swaths of territory. That is why the group 
has shifted tactics, lashing out around the world, so as the 
coalition continues to reverse ISIS gains in Iraq we also need 
to focus on taking away this recruitment and propaganda tool.
    The Obama administration began focusing on this problem 
years ago with the creation of the Center for Strategic 
Counterterrorism Communications, what we call the CSCC at the 
State Department. Diplomats and national security professionals 
were given the job of taking online space back from violent 
groups that had filled it with propaganda. The model followed 
our traditional approach to public diplomacy, speaking on 
behalf of the U.S. Government.
    But an evaluation of these efforts after a few years showed 
us some areas that needed improvement. First of all, we needed 
better coordination with outside partners. Secondly, we needed 
to provide information from sources that the target audience 
would consider credible. And lastly, we needed to find a better 
way to determine whether our efforts actually help prevent 
radicalization.
    These are real challenges, particularly the last one. It is 
virtually impossible to count the number of people who may have 
joined the terrorist group but then decided not to. To deal 
with these concerns, the administration created a new 
organization at the State Department called the Global 
Engagement Center which is designed to coordinate and integrate 
all of our counter messaging efforts.
    It has moved away from direct U.S. Government messaging to 
partner-driven approach tapping a global network of NGOs, 
foreign governments, and individuals who can better deliver our 
message to the right audience. It aims to encourage ordinary 
people in at-risk communities to launch grassroots messaging 
campaigns of their own and it places a premium on cutting edge 
technology and top talent from the private sector.
    So I firmly support this approach and I am glad my friends 
on the other side of the aisle do as well. The counter 
messaging provisions of the Speaker's new national security 
action plan echo the administration's strategy almost word for 
word. Both plans explicitly focus on empowering locally 
credible voices and employing new tools to effectively measure 
results.
    And we are starting to see some good outcomes. It was 
reported yesterday that ISIS' Twitter traffic has dropped by 
nearly 50 percent in the last 2 years, so we are on the right 
track. The question now is how do we see this agenda through? 
How do we continue to refine our strategy, identify credible 
actors, improve our ability to measure results, and keep up 
with ISIS as its online campaign continues to evolve?
    I personally think we should be investing a lot more money 
into this effort. Since 2013, the budget has jumped from less 
than $5 million to a 2017 request for $21.5 million. That is a 
good increase, but in my opinion we should go even farther.
    I am curious to hear from our witness about what other 
steps the administration is taking to implement the current 
plan and keep building on it. I look forward to your testimony. 
I thank you, Mr. Chairman, and I yield back.
    Chairman Royce. Thank you, Mr. Engel. So today we are 
pleased to be joined by Under Secretary for Public Diplomacy 
and Public Affairs Richard Stengel. And prior to serving in 
this position, as everyone knows Mr. Stengel was the managing 
editor of Time as well as the president and chief executive 
officer of the National Constitution Center in Philadelphia.
    We are going to, without objection, ask that the witness' 
full prepared statement be made part of the record, and members 
here will have 5 calendar days to submit any additional 
statements or questions for the record that they might have and 
any materials.
    And we would ask, Mr. Stengel, if you could summarize your 
remarks and we will have 5 minutes and then go to questions. 
Thank you very much.

STATEMENT OF THE HONORABLE RICHARD STENGEL, UNDER SECRETARY FOR 
 PUBLIC DIPLOMACY AND PUBLIC AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Stengel. Chairman Royce, thank you for that kind 
introduction. I am delighted to be here. And I want to thank 
you personally for your interest and support of public 
diplomacy. The 21st century is the public diplomacy century and 
your support is vital.
    Ranking Member Engel, Chairman Royce, distinguished 
committee members, thank you for the opportunity to have me 
appear today to discuss the role of public diplomacy in 
countering violent extremism. This hearing comes at a critical 
time in our fight against ISIL and violent extremism.
    In just the last few weeks, from Istanbul to Baghdad to 
Dhaka, we have once again seen the terrorists' wanton brutality 
and disregard for the lives of innocent people. Yet at the same 
time as we have seen these attacks the narrative is changing. 
There are signs of progress in our efforts to counter ISIL's 
message. The amount of anti-ISIL content on social media 
platforms is increasing, while ISIL's own content, as the 
ranking member mentioned, is decreasing. The virtual caliphate 
itself is shrinking.
    Across the U.S. Government our strategy for countering ISIL 
in the digital world has become more coordinated and more 
effective. The tech companies as well have stepped up their 
efforts at our behest. I would like to outline a few of the 
steps we are taking, some of which you have heard about already 
and note at the same time that much needs to be done.
    Now I think as folks know, this past fall we did an 
intensive review of what was CSCC, the Center for Strategic 
Counterterrorism Communications, which was formed in 2010 to 
fight a different enemy. That was al-Qaeda. But they saw that 
this new enemy ISIL was coming on board and we began to shift.
    So we evolved into the Global Engagement Center with an 
executive order signed by the President, and that Global 
Engagement Center has two missions. One is to coordinate anti-
ISIL and anti-extremist violent messaging within the 
government, and the second, again as both of you gentlemen have 
mentioned, is to enable third party voices--to optimize them, 
to amplify them--because their voices are more powerful against 
ISIL than ours. That is the core insight that made for this 
change--that our voice is not necessarily the best voice to be 
out there.
    And now we see this, the tide turning. Now I am just going 
to take exception and back to something the chairman said in 
the beginning of the hearing, this idea that the Internet is 
awash with ISIL or pro-ISIL content. There is a RAND study that 
came out recently, it is confirmed by our own GEC study that 
there is now six times as much anti-ISIL content on the 
Internet as pro-ISIL content.
    When I started in this job it was one to one. The tide is 
shifting. This idea that Twitter is awash with ISIL content, we 
did an analysis recently: 0.0124 percent of Twitter's content 
is pro-ISIL content. So--and these beheading videos that people 
talk about, every week I have a briefing about ISIL's top ten 
and I had a briefing yesterday and I asked to see any new 
videos. And the problem was is that the videos are being taken 
down so quickly that we don't even get to monitor them.
    So I think this narrative that we are losing the 
information war with ISIL is wrong. In fact, mainstream Muslims 
are winning the information war with ISIL and that is why we 
have seen that great boost of content. So--but this issue faces 
public diplomacy all around the world. There is a digital iron 
curtain going up around the world. There is a gigantic increase 
in disinformation at the same time coupled with countries that 
are decreasing their free speech in their areas. This is a 
gigantic challenge for democracies and it is something I am 
happy to talk about as well.
    We believe the most effective tool against this is the free 
flow of information and independent press, which we support. So 
this is long term and important work. I am happy to talk about 
it all. We will face setbacks I know, but I believe that we 
have embarked in the right direction and we have the right 
strategy. And I want to thank you again for having me here. I 
know we have been trying to do this for a while and I look 
forward to taking and answering your questions.
    [The prepared statement of Mr. Stengel follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
       
                              ----------                              

    Chairman Royce. Well, I think you make a good point, Mr. 
Stengel. At the end of the day we have seen a quantum increase 
in the effort to push back. Part of the difficulty though is 
that when those messages get through from ISIS or ISIL, as we 
saw in Bangladesh, it apparently doesn't take that much breach 
into the society in order to be able to find those disaffected 
people or those who can be easily radicalized.
    So even though we are mounting a more aggressive counter 
offensive, we still find the effectiveness of their ongoing 
drumbeat. And the reason for the hearing is to look at how we 
might better be able to counter in real time as I discussed the 
new programming that can be done on software that takes their 
sites down automatically. That is worth looking at.
    Some of the concepts that you and I have talked about, 
engaging the tech sector in this, we have both had these 
conversations out in Palo Alto with allies in this effort who 
would like to be part of the solution. With advertising firms 
or with Hollywood or with others who have experience with 
writing a narrative or a counter narrative in order to offset 
ideology which is extremist.
    So how can some of these come into play, I would ask? How 
do we reach out also to foreign media outlets? Are they 
receptive to running content on our behalf?
    Mr. Stengel. Thank you, Mr. Chairman. I share your concerns 
about this and I want to talk first about what you said about 
that their messaging is getting out there and it is being 
effective. I think again there is a misnomer about what they 
are doing. That somehow ISIL's messaging is so diabolically 
clever that they are taking nice young Muslim boys and girls 
and turning them into foreign terrorist fighters.
    That is not the case. They are tapping into an already 
existing market of grievance and unhappiness that is throughout 
the Arab and Muslim world. They are sometimes pushing on an 
open door. Not only that but they are targeting young men and 
young women who have mental illness and who are psychotic. That 
is what we have seen in these so-called lone wolf cases.
    So it is not so much that their messaging is so special and 
so good, it is that they are tapping into a market that already 
exists. I too share your belief, Mr. Chairman. That ultimately 
we win this information war through credible voices, through 
third parties, through Hollywood, through the kind of content 
that people who reject ISIL's dark ideology and that is 
happening.
    I mean, as you know I went out to California recently. We 
had a meeting with the Sunnylands with content providers from 
the Middle East and from Hollywood. We came up with an idea of 
a virtual writer's room where we helped them with their 
narratives, a film festival. I took the secretary out there. We 
met with the heads of all the major studios. As someone said we 
have never been in the same room before except at the Oscars.
    So we are trying to enable that. And I think using software 
as you mentioned, the tech companies have been actually very, 
very diligent, very, very aggressive in this area taking down 
content. Twitter itself said recently they have taken down more 
than 125,000 handles. They are all out there taking content off 
their platforms.
    Chairman Royce. Yes. Yes. I have a question on a related 
issue and it has to do with an initiative, Under Secretary 
Stengel, that kind of caught me by surprise in terms of some of 
my colleagues on the Senate side.
    Now as you have lain out, the Global Engagement Center is 
focused on ISIL. It is focused on international terrorist 
organizations and that is what we have been working on and that 
is where your focus is. That is a difficult task enough. Some 
would like to see the GEC's mission expanded to include all 
foreign propaganda, such as the disinformation coming out of 
Russia.
    I am somewhat hesitant here because we have a mission in 
front of us that you are engaged on. Where are the efforts and 
resources of this new office that you have set up best focused, 
and are the threats to U.S. national security from state-
sponsored propaganda that might come out of Moscow or Beijing, 
and on the other hand violent extremism messaging from groups 
like ISIL or Hezbollah, are those similar enough that they can 
be addressed by the same organization or with the same set of 
tools? If not, which Federal agency should lead in responding 
to each of these challenges? To me they seem very different.
    But I would ask you, you know, between your office at the 
Department of State, the Global Engagement Center, and the 
Broadcasting Board of Governors, which organization has the 
lead in communicating with foreign audiences and how are policy 
messages communicated to each? This gets into my question about 
this suggested alternative that has been put out there.
    Mr. Stengel. Thank you, Mr. Chairman, for that question 
which is very broad and what I will try to do is go from the 
micro to the macro. You talked about the resources of GEC. We 
have tripled GEC's budget. But most of their money and 
expertise goes to trying to amplify and help and give greater 
credibility to those voices out there in the region.
    They are helping to create content. They are helping to 
disseminate content. Not always in their own name. As you saw, 
as you mentioned early on, CSCC's problem was partially that it 
was government branded content. We have seen the metastization 
of ISIL to their so-called provinces and we are creating 
content. We have two Hausa speakers at GEC who are creating 
content to fight against Boko Haram in Nigeria. So we see this 
growth of the digital caliphate to the provinces and we are 
combating that too.
    So you mentioned this idea of a larger disinformation 
center. I mentioned this rise in disinformation around the 
world as a problem. I think it is an interesting idea. I think 
sometimes people think because disinformation is on the same 
platform that all disinformation is equal. I don't think that 
is the case. I think what Russia is doing is different than 
what ISIL is doing. I think it is an interesting idea to 
explore for the next administration, and where that would live 
I am not sure.
    But I do feel that in our public diplomacy realm between 
the GEC, between the BBG which you have been so supportive of, 
we have big battalions of people that can help. I have 700 
public affairs officers around the world. Our posts help with 
all of these things too. So it is a very good question and one 
that I am happy to continue talking to you about.
    Chairman Royce. Yes. I just think in terms of trying to put 
it all in the GEC, I think under the proposal that I heard 
GEC's mission would become far too broad for us to focus, 
really, on the issue at hand that they have been given right 
now which is to, you know, take down this virtual caliphate or 
the attempts by ISIS or ISIL to continue to recruit.
    So--but I appreciate your thoughts on it, and I should turn 
to Mr. Eliot Engel of New York. My time is expired.
    Mr. Engel. Thank you, Mr. Chairman. The administration's 
strategy for countering violent extremism and Executive Order 
13721, which created the Global Engagement Center, both call 
for empowering credible third parties to counter ISIS' 
messaging online. I think that is good, the right approach and 
there seems to be broad support for it, but actually 
identifying and empowering these credible voices, I think is 
easier said than done.
    So let me ask you, what do you look for in a credible 
voice? What tools do you use or will you use to assess whether 
it is actually credible in the eyes of our target audience?
    Mr. Stengel. It is a very good question, Ranking Member 
Engel. And one of the resources that we use, that I mentioned 
to the chairman, are our posts around the world who our locally 
employed staff there as well our Foreign Service officers who 
are dealing with local groups throughout the Gulf, throughout 
the Middle East, throughout the Horn of Africa. They help us 
determine who is a credible voice that we might want to work 
with.
    At the same there are people that we have worked with for a 
while. As you know we created the Sawab Center with the UAE in 
Abu Dhabi. They work with local voices. We work with them. We 
are creating a messaging hub as well in Kuala Lumpur with the 
Malaysians. They are looking for local people as well. And 
these are people who have knowledge of Islam, who have 
knowledge of ISIL on the ground, who have credibility too 
because in part they haven't always been supporters of the 
United States.
    So we are looking for people who are effective in that 
information war with ISIL. We started a defector's campaign 
which was the voices of young men and women who had been to the 
caliphate and came back and said it is not what it is cracked 
up to be. The engagement on that campaign eclipsed anything 
that we had done before.
    Mr. Engel. And we are still continuing to do it.
    Mr. Stengel. We are. A group of partners is doing another 
one this fall. We have done campaigns about governance. We have 
done campaigns about ISIL's brutal treatment of women. This 
campaign model, which was an evolution of what CSCC did which 
was more direct tit-for-tat messaging, that campaign model we 
have discovered is much, much more effective.
    Mr. Engel. And do you have the resources to do an adequate 
job? I know everybody can always use more money, but are your 
resources adequate?
    Mr. Stengel. Well, as you know, Congressman, I ran a media 
company once upon a time and frankly I had a lot more resources 
running Time than I have running the GEC. I also want to 
mention that I am not running the GEC, coordinator Michael 
Lumpkin, who the chairman mentioned, is running GEC and he is 
doing a terrific job in terms of really changing its focus, 
giving it momentum which he has.
    So even though we have tripled the budget it is from a very 
small base. When I came in CSCC's budget was only $5 million a 
year. So I actually think the GEC under Coordinator Lumpkin's 
leadership could actually use more money and be more effective.
    Mr. Engel. Thank you. At our hearing on this issue in June, 
we had a panel of nongovernmental experts who discussed two 
different approaches to identifying credible voices. Some 
experts have suggested a top-down approach using American media 
professionals to develop content and create messaging for third 
parties to disseminate. Others propose a bottom-up approach 
that would encourage Internet users from around the world to 
produce their own messaging through YouTube contests and other 
outreach.
    This bottom-up approach could generate a lot of content for 
very little cost. It wouldn't all be effective, but some of it 
I believe would be exceptional and authentic. What do you see 
as the advantages and disadvantages of each approach, and in 
your view what is the most effective role of the U.S. 
Government in supporting these approaches?
    Mr. Stengel. Thank you for that question. As with so many 
questions like that the answer really is all of the above and 
both, both top level and lower level. But as I mentioned in my 
opening statement, the fact that there is now six times as much 
content on social media that is anti-ISIL as pro-ISIL is really 
a tribute to those grassroots voices, the voices of mainstream 
Muslim men and women who are repulsed by ISIL's vision. They 
are creating that content.
    We are helping some groups that are doing that. We are 
trying to give capability to both individuals and groups, and 
to me that is ultimately where that battle of narratives will 
be won when those regular voices dominate. At the same time, 
you know, we can help give them greater capability, help 
streamline their message. I have talked to the people at 
different Islamic universities in saying here is how you 
shorten a 68-page fatwa to three different tweets. That is more 
effective.
    Mr. Engel. I guess my time is up, Mr. Chairman, so--well, 
the one question I would ask is I would ask you about large 
social media platforms like Facebook and Twitter. They do play 
a prominent role in the radicalization process, so how do we 
work with these companies to combat radicalization? We have 
seen social media companies improve content removal, but what 
more should these companies do to support counter messaging 
efforts?
    Mr. Stengel. Yes. I mean their platforms, they do not 
support radicalization obviously, their platforms hold content 
that does preach radicalization. But I think the story of the 
social media companies and the tech companies is an 
underwritten story. They are all aggressively out there getting 
content off their platforms. As one of them said to me, this is 
our ecosphere. We don't want to have it polluted with this kind 
of noxious content.
    So 2 weeks ago I was out in Silicon Valley. I was with the 
Secretary of State. We met with Mark Zuckerberg at Facebook 
about what they are doing. They have dozens and dozens of 
people, Arabic speakers, 24/7, taking down content. As I 
mentioned, Twitter has publicly said that they have taken down 
more than 125,000 handles.
    When I was out there last year I met with a YouTube 
executive. I see these videos are taken down now within minutes 
where it just has 25 or 50 views, whereas a year ago they were 
up for minutes or even hours. So I think the tech companies are 
really aggressive in this space in ways that people don't 
always realize.
    Mr. Engel. Well, that is good news and thank you for your 
efforts.
    Mr. Stengel. Thank you, sir.
    Chairman Royce. Mr. Dana Rohrabacher of California.
    Mr. Rohrabacher. Well, thank you very much. And Mr. Under 
Secretary, it is very good to hear that we actually are making 
headway in something that is very vital to our security and the 
safety of ordinary people throughout the world against this 
radical Islamic philosophy that seems to have gained a certain 
amount of strength and power over these last few years which 
threatens normal people whether they are Muslims or Christians 
or Jews or whoever they are. So it is very good that you have 
been on top of this and had some positive things to report to 
us today.
    Let me ask you a couple questions about, not necessarily 
what we are against on the Internet, but what we are for and 
what we have promoted. The counterpart to this growth of a 
movement that is intolerant and preaches hatred and repression 
of other faiths, we have people who are heroic people in the 
Muslim world. General el-Sisi now having been elected being 
President el-Sisi of Egypt, for example, is a pivotal character 
in the Middle East and actually in the world.
    If Egypt would in some way, let's say, turn into a country 
dominated by those who would have a caliphate and those who 
would have the same type of controls and monstrous policies 
that ISIL has been promoting we would see a--that would 
destabilize the entire region, and I doubt if any other of the 
smaller governments would survive if Egypt became a radicalized 
society.
    Are we doing something to promote those people for example 
in Egypt who, the clerics that have for example gotten behind 
President el-Sisi? President el-Sisi himself has reached out to 
Christians and other faiths. I might add one of the first 
leaders to do so. But have we done anything--I understand that 
actually there are more attacks on the administration in Egypt 
than there are as we say recognitions of the positive steps 
that he has made.
    Mr. Stengel. Congressman, thank you for that question. And 
of course I share your belief and understanding of Egypt's 
pivotal role in the Middle East and how so many countries in 
the Middle East look to Egypt for guidance.
    Another area where people look to Egypt is their expertise 
in Islamic studies. So we have worked with Al-Azhar University 
in Egypt to try to help get the message that ISIL is anti-
Islamic, that it is a perversion of Islam out in a way on 
platforms that they traditionally don't use. I mean, you know, 
having a book on paper is not going to get as much reach as 
being on social media.
    So we have also worked as I mentioned with other countries 
in the region. We started the Sawab Center with the Emirates 
and we--and the idea of the Sawab Center is that we will create 
a network of networks and they will loop in other countries who 
share the revulsion with ISIL. So the Sawab Center is already 
working with members of the coalition, including Egypt on 
counter ISIL messaging.
    Mr. Rohrabacher. Well, that is--thank you very much for 
giving us some positive news. Let me ask you this about the 
methodology that we would use in approaching this. There is a 
big controversy as to whether or not the Muslim Brotherhood 
should be declared a terrorist organization. Are we in some way 
working with the Muslim Brotherhood in terms of the Internet 
and communications and the type of activities that you are 
talking about, or have we put that as to one of the groups we 
won't work with?
    Mr. Stengel. That is outside of my purview, Congressman, 
and I am happy to go back and talk to the Middle East Bureau or 
NEA about that question. But to my knowledge we are not doing 
any kind of joint messaging with the Muslim Brotherhood.
    Mr. Rohrabacher. Let's just note that there has been a lot 
of, how do you say, hesitancy if not outright opposition in the 
administration to efforts to try to come to grips with what the 
Muslim Brotherhood is all about. And after looking at the 
Muslim Brotherhood we know that it doesn't advocate violence 
itself, but it seems to lay the intellectual foundation for 
ISIL and other radical, just radical Islamists which then leads 
the radicals who have been captured by that philosophy to 
believe that they can have a caliphate and they are going to 
wipe anybody else out who doesn't agree with it. So it actually 
in the end causes there to be violence based on a philosophy 
that leads to that end.
    So I would hope that we, while we debate whether or not it 
should be, the Muslim Brotherhood should be declared a 
terrorist organization, at the very least we should be very 
weary of having Muslim Brotherhood advocates laying the 
intellectual foundation for the debate on ISIL and other 
movements in the Middle East. So I thank you very much and I 
appreciate the positive report that we got today.
    Mr. Stengel. Thank you, Congressman.
    Chairman Royce. Thank you, Mr. Rohrabacher. Mr. Brad 
Sherman of California.
    Mr. Sherman. I want to thank you for your efforts. Our 
failure to deter terrorists is seen in San Bernardino and 
Orlando, and of course people will ask, well, why weren't we 
100 percent successful? But we will never know how many young 
men were turned away from terrorist acts perhaps here in the 
United States by your efforts.
    I am very pleased to hear you praise the media companies. 
It is good to know that they are helping. This was not the case 
a year and a half ago. In particular, you mentioned Twitter has 
taken down 125,000 handles, perhaps even more. This committee 
was very involved in pushing Twitter back a year and a half 
ago, and I hope I can add for the record our letter of March 
6th signed by the ranking member, the chairman and some other 
members of this committee sent at a time when Twitter had a 
very different policy.
    And I have a question that I hope you will respond to just 
for the record and that is, can you identify some social media 
companies that are not exemplarily helpful or extraordinarily 
helpful in their efforts, including those that are based 
abroad? Not every social media company is in Northern 
California.
    I was pleased to talk to you before the hearing and learn 
that you have on your staff a gentleman who has done some 
graduate work at Al-Azhar. Many on the committee have heard me 
talk about the need for incredible expertise in Islamic 
theology and jurisprudence, but I hope that you will go further 
beyond someone who has done some graduate work at Al-Azhar to a 
graduate to a professor or someone qualified to be a professor 
at Al-Azhar and its Shiite counterparts.
    I know that such a person might not pass the Civil or 
Foreign Service examination, so please let us know whether you 
have the flexibility to hire such a person. And not just a 
Schedule C, which is a temporary job. You need to be able to 
offer people more than a temporary job.
    You point out that grievance opens the door. Everybody has 
a grievance. And there are those in the Muslim world who will 
say it is not enough, that it is outrageous that Israel exists 
where Muslims once ruled, but Al-Andalus also must be returned 
to Muslim rule that being Portugal and Spain. So there will 
always be a grievance as long as there are churches in Spain.
    But these are psychotic people. They get to kill and rape 
and engage in pedophilia, get applauded for it on earth and be 
told they are going to heaven for it. They need to be branded 
as people who use piety as an excuse for their psychopath.
    We have moved from broadcasting to narrow casting to chats, 
where you need thousands of people conversant in what potential 
terrorists are thinking. There are thousands of American 
Muslims who I think would help you if you called upon them to 
help you. But you have to do more than just ask them. You have 
to provide them some guidance. Not all of them are tech 
whizzes. Not everybody who wants to help you is under 30.
    But also, and this is something where you can, or somewhere 
in the U.S. Government perhaps your office can be 
extraordinarily helpful, and that is a way to register as a 
trusted blogger. Because I go to my friends and they have 
talked about this. They say, now let me get this straight, 
Sherman. I am supposed to spend--I have a Muslim name. I am a 
practicing Muslim. I am supposed to spend hundreds of hours in 
terrorist chat rooms. What happens when someone knocks on my 
door and looks at my hard drive?
    And I say, well, I will vouch for you. And they say, yeah, 
Sherman, clever. That is your way to make sure that you always 
have to reelected, because as soon as you can't vouch for me 
how am I going to explain that hard drive?
    So I would hope that you would create a program where 
people can perhaps provide copies. I don't know if you will get 
a chance to read them, but at least get copies of everything 
they are putting in. But can some way identify themselves as on 
the right side, because otherwise I can't advise my friends to 
have these sites on their hard drive.
    And finally, I hope you work with and--well, why don't I 
let you comment on that and----
    Mr. Stengel. Good. Thank you, Congressman Sherman, for that 
question and we touched on some of this in speaking before the 
hearing. All of the social media platforms have opportunities 
for individual users to flag content that violates the terms of 
service of those companies. The terms of service are their 
constitutions.
    And they also have so-called trusted flagger systems where 
if you, Congressman, are a trusted flagger that complaint goes 
straight to a higher authority. In fact next week we have a 
meeting of all the anti-ISIL coalition countries and we are 
doing a presentation on that flagging service for those 
countries.
    You asked about the tech companies that are not doing their 
fair share. In my experience everybody is alarmed about this. 
But one of the consequences of the effectiveness and 
aggressiveness of the tech companies on unencrypted platforms 
is that the bad guys are moving to encrypted platforms like 
Telegram, like WhatsApp, like Kik. And that is an area that the 
good news is that they are reaching a much smaller audience. 
The bad news is that we don't know what they are saying. So 
that is an interesting area for you all to probe as well.
    Chairman Royce. Mr. Mo Brooks of Alabama.
    Mr. Brooks. Thank you, Mr. Chairman. Mr. Under Secretary 
Stengel, I was listening to your opening statement and you made 
an interesting comment and I hope I was able to write it down 
verbatim, something to the effect of that ISIS or the Islamic 
State is already ``tapping into an already existing Muslim 
market.'' And then you mentioned I think grievance or anger or 
things like that. What did you mean by that already existing 
market?
    Mr. Stengel. I don't think it will come as a surprise to 
you, Congressman, or anyone on the committee, that in many of 
these places where they are searching out sympathizers there is 
high unemployment, there is lack of education, there are 
governments that don't necessarily value free speech. So there 
is this market of unhappiness that exists already.
    I think now because the digital caliphate is shrinking they 
are looking for people who have mental health issues, who are 
psychotic, and they are trying to pinpoint those. But I think 
we are all aware that in terms of that, the Muslim world, there 
are places where there are unhappy youth although I am happy to 
say the Burson-Marsteller poll that came out a couple of months 
ago shows that 80 percent of the youth, 18 to 24, in the Middle 
East completely reject ISIL's ideology even if they became 
nonviolent.
    Mr. Brooks. Well, there are lots of places around the 
planet that have high unemployment, some degree of lack of 
education, some degree of unhappiness. What is it about Islam 
in particular that causes you to assert that that is an already 
existing market for terrorism as opposed to all these other 
places around the planet that have those similar 
characteristics but are not adherence to Islam?
    Mr. Stengel. Well, there is terrorism that goes by many 
different flags around the planet, not all terrorism is ISIL 
based. In fact one of the things that we have seen with the 
metastization of ISIL is that it has become a brand of 
convenience for people who have grievances that had not 
anything necessarily to do with ISIL's ideology.
    And I should have said this in the answer to the first 
question. One of the other misconceptions is that ISIL's 
content is all negative and filled with beheadings. We estimate 
that 80 percent of their content is positive about the beauties 
and the joys of the caliphate and the duty of every Muslim to 
go to the caliphate. So for many people it is actually an 
inspirational message.
    Mr. Brooks. Where in the world is there the kind of 
terrorism that we have seen associated with Islam? Because you 
mentioned that there is terrorism around the planet, can you 
name anything that competes with or does as much damage as what 
was seen with the Islamic State in particular or say in 
America--Orlando, Boston, Chattanooga, San Bernardino and so 
forth? What other area of the world is so inspired to engage in 
these kind of organized terrorist barbaric acts of murder?
    Mr. Stengel. No, I would, I certainly agree with you that 
ISIL's terrorism and the effect that they are having is having 
the largest share of the market and the largest share of 
concern.
    Mr. Brooks. Have you ever read the Quran?
    Mr. Stengel. I have not read the entire Quran, but I have 
certainly read pieces of the Quran and have studied the Quran, 
yes.
    Mr. Brooks. Let me share with you why there might be an 
already existing Muslim market for this kind of terrorism that 
you referenced early on, and these are quotes from the Quran: 
``When the Lord inspired the angels saying, I am with you, so 
make those who believe stand firm. I will throw fear into the 
hearts of those who disbelieve, then smite the necks and smite 
of them each finger. That is because they opposed Allah and his 
messenger. Who so opposes Allah and his messenger, for him, lo, 
Allah is severe in punishment.'' And that is Quran 8-12.
    Then, ``Then when the sacred months have passed, slay the 
idolaters wherever you find them and take them captive and 
besiege them and prepare for them each ambush. But if they 
repent and establish worship and pay the poor-due, then leave 
them their way free. Lo, Allah is forgiving and merciful.'' 
That is Quran 9-5.
    And then, ``The hypocrites and those in whose hearts is a 
disease and the agitators in the city do not desist, cursed. 
Wherever they are found they shall be seized and murdered, a 
horrible murdering.'' That is in Quran 33-60 through 62.
    Is that what you mean by an already existing market for 
terrorism?
    Mr. Stengel. One of the things that I have seen that 
Islamic scholars say about the perversion of ISIL's ideology 
about Islam is they cherry pick passages from the Quran and 
from the hadiths, which as you know there are 200,000 hadiths, 
and it is pretty easy to find hadiths or parts of the Quran 
that may contradict each other and you have to look at it in 
context. I don't know the larger context of the passages that 
you mentioned, but one of the issues that mainstream Islamic 
scholars say is that they, ISIL perverts Islam by cherry 
picking these passages that seem to support its ideology.
    Mr. Brooks. Thank you for your insight.
    Mr. Chairman, thank you for the time.
    Chairman Royce. Ami Bera of California.
    Mr. Bera. Thank you, Mr. Chairman, and thank you, Secretary 
Stengel. You know, in your opening comments you talked about 
two broad goals that you have in terms of coordinating anti-
ISIL message and then amplifying the voices of the third 
parties that are trying to coordinate and counter the ISIL 
message. I would like to focus a little bit on that second 
broad goal.
    I do think broadly in the United States as well as across 
the Muslim world, the vast majority of folks reject ISIL's 
message and want to counter that. That said, you know, their 
mechanisms of using social media and communicating in real time 
and building the message, you know, the imams may not be very 
adept at using social media, right. They may go on a blog and--
in our prior hearing we talked about some of the difficulties 
that traditional anti-ISIL Islamic groups and third parties who 
want to counter may not be adept at, you know, countering in 
real time that message, building that relationship.
    And what are some strategies that we can use along with 
technology companies that understand how to use these newer 
technologies to make them more effective in countering the 
message?
    Mr. Stengel. Yes, Congressman, thank you. It reminds me of 
the famous Mark Twain quote about the lie going around the 
world in the time that it takes the truth to tie its shoes. 
That the truth being these mainstream Muslim clerics who take 
the time to read the Quran, take the time to read the hadith 
and don't necessarily have an expertise in social media the way 
some of the bad guys do.
    So one of the ideas that we have discussed and the chairman 
alluded to it earlier is, is there a private sector foundation 
or NGO of content creators, people who can help content 
creators, who can help the imam in Detroit to get on Twitter, 
who can help some of these voices get out there? Because what 
we have seen, and I have seen this in the Middle East, there is 
often a reticence among the good guys to be out there and we 
need to get them out there and we need to give them the skill 
set to be out there.
    Mr. Bera. And as someone who is not of the--you know, when 
I think about my daughter or think about our younger staff 
members, they will roll their eyes when I talk about how I 
communicate on social media because it evolves so quickly. And 
I think it is more than just training those scholars and third 
party individuals, but it is probably partnering with them to 
take those messages and in very real time continually 
communicate and counter ISIL messaging in real time, and using 
the same tools that ISIL probably is using better than we are.
    So that would be one point. You touched on something else 
though that certainly is of concern and came up in our prior 
hearing as well. As Twitter starts to take down a lot of these 
handles, as Facebook starts to take down these messages, we 
are, as you alluded to previously, starting to see folks go to 
apps like Telegram that are much more encrypted and much more 
difficult to monitor. That is of certainly some concern, 
because as we are trying to counter a message those apps become 
much more difficult. What are some strategies that we might be 
able to work on?
    Mr. Stengel. It is an area that we are just beginning to 
explore, this migration onto encrypted platforms. And again as 
I mentioned, the good news about is they are reaching much, 
much smaller audiences, but they are using it as tools of 
violence and violent acts not so much about persuading 
according to the ideology.
    And we also know, again not to be pessimistic about it that 
the ability to create encrypted platforms is something that is 
becoming more widespread itself so that people are going to be 
able to do that in the field. And I am happy to talk more about 
that in a different setting where it would be appropriate but I 
share your concerns.
    Mr. Bera. Great. And then in my brief remaining time, in 
our prior hearing, you know, we are certainly talking about 
countering the message online, but in our prior hearing we also 
had a discussion about using traditional media tools, right, 
using Hollywood, using movies to counter a narrative. Again, 
you know, in the Middle East as well as in certain ethnic 
communities they will consume television, they will consume 
movies. And what are our strategies to continue to put out an 
anti-ISIL message, an anti-radical ideology message? And that 
is one that I certainly think we ought to be doing a little bit 
more.
    Mr. Stengel. Yes. I mean, as you know, Congressman, the 
most powerful and comprehensive platform in the Middle East is 
satellite TV. It is not social media. And just during this past 
Ramadan--which is like sweeps week for television--Middle East 
Broadcasting, which is led by a brilliant man named Ali Jaber, 
did a series called Selfie 2. Selfie 1 was a satirical, comedic 
exploration that satirized ISIL and made fun of ISIL. This 
Ramadan it was the most successful and the most watched program 
in the Middle East. This is the kind of thing that we applaud. 
We had Ali at a retreat at Sunnylands that I mentioned earlier 
for content makers from Hollywood and the Middle East, and that 
is the kind of thing that I think again will actually win this 
war of narratives.
    Mr. Bera. Great. And I am out of time, I will yield back.
    Chairman Royce. Scott Perry of Pennsylvania.
    Mr. Perry. Thank you, Mr. Chairman. Thank you, sir, for 
your attendance. I just want to hearken back to your initial 
statements and some curiosity. You have given us some good 
information, I think, this morning that gives us some hope that 
we can turn the tide on these folks in the digital arena, but 
there are also some things that concern me and at least I am 
curious about.
    And maybe it is just that we pick up the narrative and we 
repeat the narrative without really thinking about it. When we 
say ``lone wolf,'' these folks that are engaged in this cause 
of theirs that attack Americans and attack all around the 
world, they are not lone wolves. They are not the Unabomber. 
They are not holed up in some cabin somewhere only to 
themselves. They are connected to a network where they were 
inspired and where they were urged on and commanded and 
supported. And I think we do potentially a disservice to seeing 
this for what it is if we consider them in the lone wolf 
context. And I would just urge you to maybe reconsider a 
different terminology for them.
    And then it also concerns me or at least I am curious about 
the assertion that they are mentally ill. Because people that 
kill a bunch of other people that have no connection to them 
personally or there is no grievance, they are not in a war or 
something like that where one side is against the other so to 
speak, in the traditional sense they are mentally ill and I 
think we can make that leap.
    But I would submit to you that--and I am going to give you 
a couple names. And there was also, you know, in regard to what 
Mr. Brooks said regarding unhappiness, unrest, economic unrest, 
social mobility, whatever you alluded to there that that is 
what drives these people. Al-Zarqawi, bin Laden, Zawahiri, 
Baghdadi, people of means, people of education, people of 
status in their communities, we are talking about billionaires, 
millionaires, doctors; these are people that lead this 
organization and this effort.
    And sir, when we say they are mentally ill, again I think 
we cloud, potentially cloud our view of--these are people who 
are committed to their religious cause. Now whether we feel it 
is a perversion of Islam or not is a wholly other discussion, 
but they feel that the people they are killing are perverting 
Islam. And they are not, you know, I would say that they are 
not what we classically consider mentally ill. They know 
exactly what they are doing. They have their faculties about 
them and they are committed to a cause. And I just worry that 
and I am concerned that that narrative, that position 
potentially clouds our judgment on how to address these folks.
    And I know I haven't asked you a question yet, but let me 
ask you this. You know, ISIS cells in Raqqa are directing 
training and operations specifically at targeting Americans and 
people in the West, right. So if you are not aware, Assistant 
Secretary Atkin, he did defer to a classified setting and you 
may want to do the same. But when he said we also have to 
respect--we are talking about shutting down the network, the 
ability to gain access to the Internet in Raqqa, Syria. He said 
we have to respect the rights of citizens to have access to the 
Internet and balance that even in Raqqa.
    We don't want to be at war with these people, but these 
people are at war with us. I would think that shutting down the 
Internet or the access to the Internet in Raqqa where the 
headquarters of ISIS is would be a tactical and strategic 
consideration that would diminish their capabilities. What is 
your opinion about that?
    Mr. Stengel. Thank you, Congressman. I am going to begin by 
saying that I share your wariness and concern about the term 
``lone wolf.'' I think it is a misnomer. I think it is a term 
that is in part created by the media because it is a cliche. 
One of the things that we have seen is that the idea that 
someone is self-radicalized by himself or herself almost 
doesn't exist. I had a very smart person say to me it is much 
more of a epidemiological model for radicalization, i.e., 
frequent, intimate contact over and over.
    Everything we have seen with any of these so-called lone 
wolves is that it wasn't about being radicalized about content. 
It was they were being touched repeatedly over and over by 
particularly recruiters who were trying to get them to go down 
that road. So I share your concern about that.
    One of the reasons in the--to go to your question in the 
diminution of content that is out there is our success on the 
military battlefield that early on a Brookings study estimated 
that there were as few as 500 of these ISIL fan boys, these 
hyperactive people on social media who were creating the lion's 
share of the content out there.
    Basically with our success on the military battlefield of 
getting back almost 40 percent of the territory in Iraq that 
ISIL once held we are getting rid of a lot of those people who 
are creating that content. And we have plans which as you say 
might be better discussed in a different setting about how to, 
while not getting rid of regular people's access to the 
Internet, getting rid of some of these hyperactive ISIL fan 
boys' connection to the web.
    Mr. Perry. My time is expired. Thank you, sir.
    Chairman Royce. Lois Frankel of Florida.
    Ms. Frankel. Thank you, Mr. Chair. Thank you, Mr. Stengel, 
for being here today. I want to just ask about maybe just a 
little, an adjoining subject I will say which is, you know, we 
have been told that one of the recruiting tools of ISIS or ISIL 
was making sex slaves available to them and we know there have 
been thousands at least physically and there has been the use 
of the Internet.
    We saw that--Mr. Chairman, we went to Tunisia. I think we 
saw some people, giving you some examples, if it is okay I am 
going to put this----
    Chairman Royce. Without objection, we will submit it to the 
record.
    Ms. Frankel. Okay, put them in the record. But I will 
just--this was an example I will show you. This was a young 
girl, I think she was 12, 12 years old, being sold by ISIL over 
the Internet. So my question to you is, if you know, is there 
continuing to be a prevalence of this issue? What are we doing 
to try to shut it down?
    Mr. Stengel. Yes, Congresswoman, I share your revulsion 
with ISIL's treatment of women and girls. It is unimaginable 
and speaks to exactly what their values are rather than what 
they say. My understanding is that it continues. It is actually 
relevant to the discussion we had about unencrypted versus 
encrypted platforms. They are using encrypted platforms for 
this slave trade. They are using the so-called dark web.
    This is not something that happens on the social media 
platforms that we all know, it is something that happens behind 
that digital curtain that we talked about and it again is 
something that we are working on. Again happy to talk about it 
in a different setting.
    Ms. Frankel. Are some countries more successful at stopping 
the virtual terrorism than others and could you explain why?
    Mr. Stengel. It is a very good question and I am more in 
the messaging business which obviously the ultimate goal is to 
stop the flow of terrorists and foreign fighters. There are 
certainly some countries that are more aggressive, more active, 
more willing in the messaging space which I think has a direct 
correlation in deradicalization.
    And I mean, I have mentioned before the Sawab Center which 
is in partnership with the UAE. I mean, the UAE has been very, 
very forward-leaning in getting into this space but yet we have 
had conversations and relationships with the Jordanians, with 
the Egyptians. As I mentioned there is another center that we 
are working on with the Malaysians. We have talked to the 
Indonesians. Everybody understands that they have to be in the 
space now.
    Ms. Frankel. Because there seems to be now, if the physical 
caliphate is being reduced, it sounds to me like the danger now 
is these inspired attacks.
    Mr. Stengel. Again it is a very good question and it is a 
very big concern. We make a distinction between inspired 
attacks and directed attacks. And the unintended consequence of 
destroying the physical caliphate, which by the way was the 
raison d'etre of ISIL in the beginning; that they were creating 
a physical caliphate. The unintended consequences of that is 
that they are spreading into becoming more of an insurgency 
group and a non-state terrorist group and that is extremely 
dangerous, as we have seen from San Bernardino to Orlando to 
Paris, and there seems to be a correlation between the physical 
battlefield being shrunk and their expansion into this 
terrorist insurgency battlefield.
    Ms. Frankel. I want to make sure I have the correct 
terminology here. But directed and inspired, is the difference 
that one, the attacker comes to it on their own versus being 
recruited? I think you referred to attacks because somebody 
kept going after someone.
    Mr. Stengel. Right. A number of months ago, Muhammad 
Adnani, who is the alleged spokesperson for the so-called 
Islamic State, said that while we are being reduced on the 
physical battlefield, the caliphate is physically shrinking, so 
you should take the battle--don't come to Iraq and Syria. Take 
the battle to wherever you are and attack infidels wherever you 
are. And so those are not directed attacks but they are 
inspired by that kind of pernicious ideology.
    Ms. Frankel. Thank you. I will yield back.
    Mr. Duncan [presiding]. I thank the gentlelady. The chair 
will now go to Mr. DeSantis from Florida 5 minutes.
    Mr. DeSantis. Thank you, Mr. Chairman. Thank you for 
coming, Mr. Stengel. How would you define this term that gets 
bandied about ``violent extremism''?
    Mr. Stengel. I am sorry. Can you repeat the question?
    Mr. DeSantis. How would you define this concept of violent 
extremism?
    Mr. Stengel. I would define it as people who take a radical 
or extreme belief to the extreme of actually committing 
violence in its name.
    Mr. DeSantis. And when we are talking about violent 
extremism, what type of beliefs have we seen that lead people 
to commit those acts of violence?
    Mr. Stengel. What types of belief have caused them to 
commit the acts of violence? Again I would, and we have circled 
around this a little bit today. I would say that it is not so 
much a belief system or an ideology, but it is this recruitment 
by people who are trying to get people to commit violence in 
the name of an ideology or an idea that it doesn't necessarily 
espouse violence by its very nature.
    Mr. DeSantis. So I guess because I think it is important 
because some of the stuff you have outlined I think is good, 
but how you see the problem I think is important. So for 
example, when we hear about some violent extremists I get the 
sense from some people in the administration that somebody who 
is committing terrorism in the name of Islamic jihad let's say 
that they are really not doing it because of any type of 
religion. What they are doing is they are trying to co-opt 
religion to justify, but really their main goal is to just 
kill.
    And so that is kind of one view. I would say it is a very 
narrow view. Or you could have another view which says these 
folks actually are motivated by an ideology and maybe it is not 
necessarily the same way that most Muslims in the world view 
the faith, but they honestly believe it and they think it is 
their religious duty to wage war against societies and 
individuals who don't or aren't willing to submit to that 
belief system.
    So when you are approaching this how is it? Are these 
people whose main goal is just to kill and they kind of use 
religion as a convenient excuse, or do you see groups like 
ISIS, groups like al-Qaeda, other terrorist groups as being 
people who really are committed to militant Islam and believe 
that they are commanded to do this based on that belief system?
    Mr. Stengel. Congressman, I think it is both. I think we 
have seen both. I mean, one of the statistics that I didn't 
mention earlier is that there has been an enormous decline in 
the flow of foreign terrorist fighters. The DoD estimates that 
it has declined by 80 to 90 percent. One of the things that we 
saw with those for the most part young men who were becoming 
foreign terrorist fighters is that 80 percent of them had very 
little or almost no knowledge of Islam. Their attraction to 
being foreign terrorist fighters ranged everything from just 
wanting to kill to adventurism to publicity, and yet there were 
others who believed in this apocalyptic ideology. And so we see 
both.
    But I think for the most part, particularly as the actual 
physical caliphate is shrinking, they are looking for people 
who are willing to commit violence for any reason. But I do 
think----
    Mr. DeSantis. But they, the ``they'' are people you would 
acknowledge who really are committed to the ideology, correct?
    Mr. Stengel. They are committed to that twisted ideology 
which embraces violence as a means to the end that they desire.
    Mr. DeSantis. So as you approach this how do you view, 
because I have seen a lot of different surveys down in the 
Islamic world where you have very high numbers of people who 
support the imposition of Sharia Law and which obviously has 
some very harsh consequences for women, for people who don't 
believe, who are non-Muslims, and what have you. The vast 
majority of those people I don't think would ever join a 
terrorist group, but they do believe in that kind of concept of 
civil society. Now you have the terrorist groups who want a 
caliphate under Islamic law as well.
    So how do you deal with trying to reach people whose 
conception of civil society is radically different from ours 
but we don't necessarily, we want to give them an option other 
than just going into the terrorist camp? Because some of these 
people, if they believe deeply in Sharia and they have Western 
folks, and you did make a good point in your testimony about us 
not always wanting to be the messenger, but if they have 
messages that are coming, even though ISIS may not be their 
ideal cup of tea that may seem a little bit more attractive 
than if we are selling something that they think is contrary to 
their faith.
    Mr. Stengel. Congressman, it is a really difficult question 
and a really good one and philosophical one. And I am probably 
not supposed to mention people's books here, but I recently 
read a book called ``Islamic Exceptionalism'' by Shadi Hamid. 
And the thesis was that this separation of church and state 
that we have in the West and with Christianity, which happened 
over hundreds and thousands of years, isn't necessarily true of 
Islam. That Islamic law is intrinsic to being a good Muslim 
citizen, and this idea of a separation doesn't exist in Islam 
the same way it exists in the West and Christianity. I think 
that is an interesting and provocative point that needs to 
influence our policy and understanding.
    Mr. DeSantis. Great. I am out of time. I will just say I 
would like to submit a question about some of the clerics like 
Sheikh Qaradawi, very important with the Brotherhood, how we 
deal with the messages that they are sending. And I yield back.
    Mr. Duncan. And I thank the gentleman. The chair will now 
go down to the gentleman from Rhode Island, Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary, for your testimony and for your extraordinary 
leadership and the progress that has been made under your 
leadership. I want to begin first with the level of financial 
support that Congress provides to your work.
    When you consider the level of information that is being 
produced by violent extremists online I think you have already 
hinted at the fact that you could obviously do more with more 
resources, but I am going to ask you directly. Is the 
government adequately resourcing the Global Engagement Center 
to fully support its mission? From your experience what level 
of funding do you need?
    And then the second part of the question is really what are 
other countries doing and what are the capabilities of other 
countries to engage in this fight and are there countries that 
should be doing more or do we have great partners? But the real 
first question is are we doing our part in terms of funding the 
work of your department?
    Mr. Stengel. Mr. Congressman, thank you for your----
    Mr. Cicilline. I mean as a comparison, in the U.K. for 
example the agency that deals with online counter messaging and 
anti-terrorist activities is funded at $8 million. So that is 
just a relative comparison. It seems like we are seriously 
under funding this effort.
    Mr. Stengel. Well, I thank you for that question and it is 
an issue that we discuss and think about every day.
    I just want to pull back for 1 second and say that the GEC, 
as effective as it is, it is only 4 months old. It is one part 
of a constellation of things that we are doing, you know, not 
only public diplomacy issues but working with partners. I mean, 
you mentioned the British. We have worked with the U.K. to 
stand up the coalition Web site which tracks, in English, the 
successes of the coalition against ISIL. That is something we 
literally didn't have a year ago. So we leverage our 
partnerships and that has a dollar value as well.
    But I do think, Congressman, and even though we have 
tripled the very small budget of CSCC into GEC, we have asked 
for, I believe, $21 million for Fiscal Year 2017, I think $60 
million for Fiscal Year 2018. So we think we could do more with 
more.
    Mr. Cicilline. Thank you. Next I want to ask you about the 
work of sort of building the cadre of people who would be 
authentic, credible sources on social media to respond to Daesh 
and other terrorist organizations. I think we recognize that 
the United States Government is not the best provider of that 
content or to actually do it, and I am wondering what the other 
public diplomacy efforts that you are engaged in are doing to 
leverage that. For example, the exchange programs, the young 
leadership program, the Fulbright scholarships so that we can 
help build capacity and create those authentic voices who are 
then responding kind of organically to some of this in addition 
to funding, providing resources and building capacity of people 
who are already prepared to do it and are capable of doing it.
    Mr. Stengel. I am glad you asked that question. In fact I 
sent out a tweet yesterday about the beginning of the TechGirls 
exchange, which is bringing young Muslim women in STEM subjects 
to study here on exchanges. I mean, the exchanges are golden 
and transformational and frankly, you know, every dollar we 
spend in them I think we get much, much, much in return.
    In that same vein we have IVLPs, international visitor 
leadership exchanges, in this area. We have increased the 
number of CDE IVLPs at my urging. And then we have also, we 
have something called TechCamps which was started in a previous 
administration but what I have beefed up and brought into 
public diplomacy. So we have doubled the number of TechCamps 
and I am doing it in this part of the world where we give 
people skills to combat that message in real time and they are 
often coupled with hackathons where they are actually creating 
contact.
    Mr. Cicilline. Great. And the final question is the FBI 
recently announced the Shared Responsibility Committees 
program, which offers an alternative path to intervention 
besides arrest. As you know, Canada and many of our European 
allies have a history of utilizing this deradicalization and 
intervention approach.
    Have those been successful? Should we be, you know, 
developing similar deradicalization programs or should we be 
providing some additional emphasis on that approach? Has the 
history of that been effective?
    Mr. Stengel. As you know, Congressman, my focus from a 
statutory standpoint is on foreign audiences rather than 
domestic audiences. That being said, in my travels throughout 
the region, and I was at a conference in Jakarta on 
deradicalization, particularly in the Muslim Asia, the belief 
in deradicalization is something that is very powerful and they 
see it as something that jibes with this mainstream view of 
Islam.
    And I do think it is something that we need to explore, 
that Americans need to know more about. And I don't have any 
data about success rates in North America, but it is something 
that frankly I would encourage a closer look at.
    Mr. Cicilline. Thank you. I yield back. Thank you, Mr. 
Chairman.
    Mr. Duncan. The gentleman's time is expired. Thank you so 
much. I will now recognize myself for 5 minutes. Thanks for 
being here. I would just ask the committee to remember 
Congressman Ted Poe in our thoughts and prayers. Announced 
today he has leukemia, and he is a valuable member of this 
committee, a valuable Member of Congress, and a great American.
    Mr. Under Secretary, I am on Homeland Security Committee as 
well and been in Congress almost 6 years, and the Homeland 
Security Committee and the Department was formed after the 9/11 
Commission really identified a lot of the walls that were put 
up between the sharing of information between agencies that led 
to some of the failures that allowed the 9/11 attacks on 
America to happen.
    But when I think about this as I am sitting here listening 
to the testimony today, the Department of State has a Bureau of 
Counterterrorism and Countering Violent Extremism area. Now we 
have the Global Engagement Center which was formerly the Center 
for Strategic Counterterrorism Communications. So that is at 
the Department of State.
    We also have the DoD which is using SOUTHCOM and AFRICOM 
and other elements to combat terrorism globally, whether it is 
in this hemisphere or whether it is in Africa or whether it is 
prosecuting the war against terrorism by dropping bombs and 
drone strikes against actual ISIL and al-Qaeda elements 
throughout the war on terror.
    We also in the country have the NCTC, National 
Counterterrorism Center. We have JTTFs, Joint Terrorism Task 
Forces, all over the country working with law enforcement in 
the states. We have the National Targeting Center which is 
looking at container shipping and understanding how potential 
threats may transit the globe.
    We have an agency known as the Department of Homeland 
Security which was created, what, in 2003, 2004 which combined 
22 existing agencies into one huge bureaucracy of all homeland 
security elements whether that is, other than the FBI maybe 
that is a justice division, but NCTC, Secret Service, Border 
Patrol, Customs and Border Protection, Immigration and Customs 
Enforcement, USCIS, I could go through all 22 of them. There is 
a lot.
    The reason I point out that is we have all these elements 
out here within this huge bureaucratic United States Government 
that are all trying to do the same thing and that is ultimately 
to keep Americans safe and stop terrorism. Terrorism is a 
global effort against freedom. To establish a caliphate is the 
goal of ISIS, but there are other terrorist elements out there 
that are not involved with ISIS. That is Boko Haram. That is 
Abu Sayyaf. That is Iran's Quds Force. They are responsible for 
so many attacks on Western elements.
    So the question I have is we continue to change names and 
set up different groups, how effective are we? And are we not 
creating or recreating the problems we solved prior to 9/11 
with all these different groups? I guess what I am asking is 
there information sharing or are there walls?
    Mr. Stengel. Congressman, thank you for that question. If 
you recall, I came into government from the private sector and 
I think I spent the first 6 months trying to memorize all the 
acronyms of all the groups that I needed to know to be able to 
communicate with.
    Mr. Duncan. I didn't scratch the surface. I mean, as you 
know I didn't scratch the surface on the acronyms and alphabet 
soup of government.
    Mr. Stengel. That being said, I think one of the effects of 
9/11 is that people realize that there were these silos of 
information and we weren't communicating. And the GEC by 
definition in the President's executive order creates it as an 
interagency body and an information coordinating body. So there 
are detailees from NCTC, detailees from DoD, detailees from the 
intelligence community, two detailees from Homeland Security at 
GEC that make up the staff.
    And the idea is that by its very nature it is a 
coordinating entity to create coordination among messaging 
across the government, so I think to that extent it is doing a 
pretty good job of that. You know, it has been creating 
messaging coordination memos that go out to all of those folks. 
So I think we do both know more what everyone else is doing and 
we are beginning to do it together.
    Mr. Duncan. What I am concerned with, Mr. Under Secretary, 
is that we are not being effective. And the reason I say that 
there are groups like Kronos Advisory, which is a private 
enterprise looking at global terrorism and they are monitoring 
not only social media, Twitter, Facebook, Instagram, you name 
it. They are also monitoring the dark web which I don't know 
that that element of the dark web and encryption has been 
brought up today, but ISIS is becoming a lot smarter. Social 
media is an easy way to attract those recruits. The 
communication is happening beyond the normal person's purview, 
not happening on Twitter.
    So when I see a group like the one I just mentioned, a 
private group who can inform me as a Member of Congress and 
elements within the U.S. Government's intelligence service a 
lot faster about what they see on Twitter, what they pick up on 
social media than these alphabet agencies, I wonder how 
effective we are as a big government that is so seemingly 
disconnected.
    And I think about the Department of State. I am sorry, but 
that is foreign relations. That is policies between 
governments. I don't really understand the Department of 
State's role in counterterrorism activities that I see the 
Bureau of Counterterrorism and Countering Violent Extremism. I 
am sorry, but I don't. I think that is a national security 
apparatus function with the Department of Homeland Security 
which I mentioned earlier, 22 agencies combined together to 
create this mega-bureaucracy as known as DHS. I wonder how 
effective that is being so large and cumbersome, but then I 
hear about the Department of State. I know what DoD is doing.
    And my gosh, America just wants to be safe and they want to 
make sure we are all communicating. I think the gist of what I 
am asking today, and you don't have to answer this but the 
point I want to make is this. We don't need walls. We need to 
make sure that we are communicating. And I am not sure that 
large government agencies and the number of agencies that I 
mentioned all doing similar things is the most effective way, 
because sometimes smaller is better. Joe Montana proved that as 
quarterback of the San Francisco 49ers.
    With that I will go down to Mr. Deutch for 5 minutes.
    Mr. Deutch. Thank you, Mr. Chairman. And I want to thank 
the chairman and ranking member for making countering violent 
extremism a priority of this committee and appreciate the 
opportunity to engage with Under Secretary Stengel today. I 
would also like to associate myself with the remarks of the 
ranking member and so many others who have commended the 
administration for pursuing a strategy to combat ISIS and other 
terror groups online.
    And I just wanted to follow up on a few points that have 
been raised here. One, with respect to social media, obviously, 
Mr. Stengel, it is not just that ISIS uses social media to 
recruit members and spread propaganda. After the shootings in 
Tel Aviv just weeks ago, Hamas took to Facebook to praise those 
attacks. Now the victims of Hamas' terror have filed a lawsuit 
against Facebook.
    And I know as you point out that companies like Facebook 
have been aggressively getting content off of their platform 
and the peer-to-peer challenge that they have been actively 
engaged in I think also deserves great credit. The question is 
just a broader one and I would just like to start the 
conversation. Should a designated foreign terrorist 
organization be allowed to use U.S. based social media 
platforms?
    Mr. Stengel. Congressman, thank you for that question. And 
it is a large and philosophical question. And one of the things 
just to go down into the weeds for a second, in my 
conversations with the social media companies and in the trip 
that was publicized that was led by Denis McDonough to meet 
with the heads of the tech companies, one of things I hear over 
and over is we need help discerning one terrorist message from 
another. You know, is this a group that you might actually 
support as opposed to one that their content should be taken 
down? The intelligence community also creates messages that are 
sometimes confused for terrorist messaging.
    So I think the tech companies are eager to collaborate with 
government about finding the kind of message that they want to 
take off their platforms, the messages that is polluting their 
platform. And as I mentioned they have their own constitution 
in terms of service and it isn't necessarily about designated 
terrorist organizations but the kind of content that is put up. 
And that is not something that we police, that is something 
that they police themselves.
    Mr. Deutch. Well, it is and it isn't. I absolutely agree 
that they are policing content and they devote incredible 
resources to taking down content that violates their standards. 
But I really am getting at just the basic point of whether--and 
as I said it is a conversation I just think that needs to take 
place.
    Referring to this specifically, is there a place, should 
foreign terrorist organizations be allowed to have a platform 
and I guess part of that conversation is, is there content--
should we be making decisions and distinctions about the 
content on pages and sites, social media sites of designated 
foreign terrorist organizations or should we simply take the 
position that there is no reason to distinguish between 
something that is offensive and violates the standards of the 
company and something that I suppose may not technically 
violate the standards but still represents the words, the 
urgings of a terrorist organization?
    Mr. Stengel. If you are asking me, Congressman, no. I don't 
think a foreign terrorist organization should have a platform 
on any of these social media sites. That being said, one of the 
issues that we face all of the time is how the First Amendment 
applies to these American companies which is different than any 
other countries around the world.
    As I mentioned earlier, so much of the ISIL content is 
actually positive. A few weeks ago I saw a tweet from an ISIL 
sympathizer and it showed a picture of a basket of apples and 
all it said was the caliphate is bounteous. Is that protected 
by the First Amendment or not? Is that content that Twitter 
should take off? I mean, I think these are very difficult 
questions and our environment on that continuum between freedom 
and security puts all of these things----
    Mr. Deutch. I completely agree. I am sorry, because I am 
about out of time. But I think that is, and I don't know the 
answer but that is exactly the question. The question is are we 
doing less than we can if we allow terrorist organizations to 
post what would not be deemed, which would only be viewed as a 
positive post by anyone else? But to suggest that the caliphate 
is bounteous, it actually plays into a narrative that they are 
using to try to radicalize individuals around the world. I just 
think it is something we really need to struggle with and I 
appreciate the opportunity to start these exchanges with you 
here today. I yield back.
    Mr. Duncan. I thank the gentleman. Especially when 
conservative content is deleted or denied and they allow 
radicalized content to remain up. I will now recognize Mr. 
Donovan from New York 5 minutes.
    Mr. Donovan. Thank you, Mr. Chairman. I apologize. I have 
to be some place at 11:30. It is 11:40 already, so I am just 
going to ask quickly, Mr. Secretary, and I came to the hearing 
late so a lot of the questions were already answered.
    I was very interested when you were saying how there is so 
much more anti-ISIS content online than there is--that 
surprises me--than there is pro-ISIS. Is that information, 
counter ISIS information things that our Government is putting 
online? Is that individuals putting online the anti-ISIS 
information and content?
    Mr. Stengel. Congressman, the lion's share of it is 
individuals and organizations and clerics and imams. It is not 
government messaging. Some of it is government messaging, some 
of it is government messaging of our partners. But as I say 
most of it is the voices of mainstream Muslims.
    Mr. Donovan. And I know it is difficult to measure a 
negative, but is there a way? Can we tell how effective this 
anti-ISIS messaging is, the effect of it?
    Mr. Stengel. It is a very good question and it is hard to 
say. I mean, we do want to drown out their message with 
positive messages and positive narratives and that is something 
not just countering their message but providing alternatives. 
And I think one of the positives of that is that there are a 
lot of alternatives that are now being proposed and are out 
there.
    Mr. Donovan. And I, like the chairman, am on Homeland 
Security as well and there was a debate, discussion on whether 
or not we should use folks who are radicalized who then have 
seen that the life they were promised was filled with 
falsehoods and whether or not we should use those individuals 
who want to explain to others that what you are being promised 
is not true, and I think that debate continues.
    Let me just ask you quickly about the size of the recruits. 
I know you had also said that they are recruiting from a 
community of existing potential sympathizers and not expanding. 
I know some people are thinking that community of people of 
potential recruits might be as large as 20,000 people. Do you 
have any idea about how big that community of potential 
sympathizers might be?
    Mr. Stengel. Well, the numbers that I have seen of the 
number of foreign terrorist fighters who have gone to Iraq and 
Syria from the very beginning is something on the number of 
40,000, many of whom are killed, many of whom are gone. What I 
have also seen is a statistic from DoD that their flow every 
month used to be 1,500 to 2,000 and now it is 200 to 400. So it 
has been radically reduced, although that was a period quite a 
while ago in time so we don't know exactly what is happening 
today.
    Mr. Donovan. And you answered my final question. I was 
going to ask you if you think that community is growing or 
shrinking and apparently it seems to be shrinking. Thank you so 
much for your time.
    Mr. Stengel. Thank you very much.
    Mr. Duncan. The chair will now go to the former chairwoman 
of the committee, Ms. Ros-Lehtinen for 5 minutes.
    Ms. Ros-Lehtinen. Thank you so much, Chairman Duncan, and I 
had several conflicting events so I apologize if some of these 
questions have been asked before. I have several questions and 
pick which one you would like to answer within my time, sir.
    As radical Islamist groups become more and more 
sophisticated we have seen them become more adept at 
manipulating social media platforms as tools to spread their 
propaganda, recruit vulnerable individuals to their cause, and 
extremist groups have found a way to adapt much quicker than we 
have been able to and they take advantage and exploit the rules 
we have in place in free societies that obviously protect 
privacy and speech. And that really seems to me to be the crux 
of the issue for Western societies.
    How do we battle an ideology and a methodology that are not 
constrained by the same rules under which we operate? 
Individuals do not radicalize in a vacuum and I worry that our 
efforts to counter message the existing narrative may already 
be lost before they begin. How effective can counter messaging 
work when it is likely that by the time we identify at-risk 
individuals they are already well on the path toward 
radicalization?
    And here in the U.S. we have invested a lot in countering 
violent extremism programs like this and how do our programs 
compare to the efforts of our allies in the Middle East? Are 
they more effective than our own capabilities?
    And also, a few weeks ago a team from my alma mater, the 
University of Miami, led by Professor Neil Johnson, published a 
study in the academic journal Science entitled, ``New Online 
Ecology of Adversarial Aggregates: ISIS and Beyond.'' And among 
its findings it found that pro-ISIS narratives develop through 
smaller, self-organized online groups and they have the ability 
to adapt, to extend their longevity, and even increase their 
numbers despite constant pressure from law enforcement groups 
and other anti-ISIS entities.
    The study suggested that if these groups are not broken up 
at a fast enough pace then pro-ISIS support and material can 
expand exponentially faster through its networks. But it also 
suggested that anti-ISIS entities can use data mining and 
analysis to focus on taking down these hundreds of smaller 
groups before they get too strong. Are you familiar with this 
research, sir, and are you employing similar tactics at the 
Global Engagement Center?
    And lastly, how effective is this Big Data mining and 
analysis when ISIS continues to adapt to employ techniques to 
avoid detection by the same people who are sifting through the 
information looking for them? Thank you so much.
    Mr. Stengel. Thank you, Congresswoman, for that question. 
And indeed you have touched on some of the things that we have 
talked about here today, but they are all very good questions. 
That is why it is so difficult in this space. The actual 
particular research that you mentioned I am not familiar with. 
I would very much like to----
    Ms. Ros-Lehtinen. I will send it to you. Thank you, sir.
    Mr. Stengel. Thank you very much. I have seen research that 
is similar about the distributed networks that ISIL has that 
they don't have a strong center. That these provinces and these 
other communication entities are distributed and they don't get 
a central message and that is one reason that it is difficult 
to compete with them.
    Your point about the platforms is it is a difficult one. 
These are the greatest platforms for information in human 
history and they can also be abused by disinformation and this 
negative content. That is why we work so closely with those 
companies to help them get that content off their platforms. 
Those companies as much as we, maybe more, want to have that 
content off their platform because it ruins it for everybody 
else.
    And the idea of Big Data is something that we want to 
explore. I didn't mention this earlier, but the GEC, the Global 
Engagement Center, is creating a Big Data hub, a data analytics 
hub, and it is using some tools from the interagency. There is 
a DARPA tool that they are using, Congressman Duncan that is 
worth mentioning. And so these are all issues that we are 
wrestling with and this is why it is a tough fight.
    Ms. Ros-Lehtinen. I fight that we must win. Thank you so 
much. Thank you, Mr. Chairman.
    Mr. Duncan. Thank you. The gentlelady yields back. I will 
take the opportunity to tell you, Mr. Stengel, we appreciate 
your time today. You have been a great witness. And this issue 
is critical. That was pointed out by all the committee. You 
assert that the counter-ISIL message is gaining steam and look, 
I hope you are right. I think we all hope you are right. And as 
I noted, at the end of the day we are dealing with a huge 
bureaucracy, Federal bureaucracy that has its challenges.
    So the committee looks forward to continuing the work on 
this effort and I look forward to continuing the work as a 
member of the Homeland Security Committee as well, and I look 
forward to us continuing to discuss this critical topic.
    With no further business, we will stand adjourned.
    Mr. Stengel. Thank you.
    [Whereupon, at 11:51 a.m., the committee was adjourned.]

                                     

                                    

                            A P P E N D I X

                              ----------                              


[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
